<html>
<title> - ENGAGING BELARUS ON HUMAN RIGHTS AND DEMOCRACY</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress                                                        Printed for the use of the
1st Session                                       Commission on Security and Cooperation in Europe
___________________________________________________________________________________________________


 
                        ENGAGING BELARUS ON HUMAN  RIGHTS AND DEMOCRACY
                        
                        
                        
                        
                        
                        
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      





                        


                                            July 21, 2017
                                            
                                            
                                            
                                            
                                            
               Briefing of the Commission on Security and Cooperation in Europe                                  
             ______________________________________________________________________                               
                                         Washington: 2017                  
                                            
                                            
                                            
 



                       Commission on Security and Cooperation in Europe
                                 234 Ford House Office Building
                                      Washington, DC 20515
                                       202-225-1901
                                  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1271617177527f737b7e3c7a7d6761773c757d64">[email&#160;protected]</a>
                                   http://www.csce.gov
                                     @HelsinkiComm

                                       Legislative Branch Commissioners

              HOUSE                                  SENATE
              
CHRISTOPHER H. SMITH, New Jersey               ROGER WICKER, Mississippi,
Co-Chairman                                    Chairman
ALCEE L. HASTINGS, Florida                     BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                    JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                      CORY GARDNER, Colorado
STEVE COHEN, Tennessee                         MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                 JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                       THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                      TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                          SHELDON WHITEHOUSE, Rhode Island
                                               

          
            
          
          
                                Executive Branch Commissioners

                                    DEPARTMENT OF STATE
                                    DEPARTMENT OF DEFENSE
                                    DEPARTMENT OF COMMERCE





ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




             ENGAGING BELARUS ON HUMAN RIGHTS AND DEMOCRACY

                             July 21, 2017


                                                                                      Page
                              PARTICIPANTS

    Scott Rauland, Senior State Department Advisor, Commission for 
Security and Cooperation in Europe ..................................................... 1

    Stephen Nix, Eurasia Division Director, International Republican 
Institute, Washington .................................................................. 3

    Katie Fox, Deputy Regional Director for Eurasia Programs, National 
Democratic Institute, Washington ....................................................... 5

Sanaka Samarasinha, United Nations Chief in Belarus .................................... 7

Pavel Shidlovsky, Charge d'Affaires, Embassy of the Republic of 
Belarus in the United States ........................................................... 9



                                APPENDIX

Prepared statement of Stephen Nix ...................................................... 19

Prepared statement of Katie Fox ........................................................ 25







            ENGAGING BELARUS ON HUMAN RIGHTS AND DEMOCRACY
                              ----------                              

                             JULY 21, 2017




    The briefing was held at 10:31 p.m. in room G11, Dirksen Senate 
Office Building, Washington, DC, Scott Rauland, Senior State Department 
Advisor, Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Scott Rauland, Senior State Department Advisor, 
Commission on Security and Cooperation in Europe; Stephen Nix, Eurasia 
Division Director, International Republican Institute, Washington; 
Katie Fox, Deputy Regional Director for Eurasia Programs, National 
Democratic Institute, Washington; Sanaka Samarasinha, United Nations 
Chief in Belarus; and Pavel Shidlovsky, Charge d'Affaires, Embassy of 
the Republic of Belarus in the United States.
    Mr. Rauland. Good morning, ladies and gentlemen. On behalf of the 
Helsinki Commission Chairman Senator Roger Wicker, and Co-Chairman 
Representative Chris Smith, I'd like to welcome you all to our briefing 
on ``Engaging Belarus on Human Rights and Democracy.'' My name is Scott 
Rauland and I'm the Senior State Department Advisor for the Helsinki 
Commission. I served for two years as the chief of mission at the U.S. 
embassy in Minsk, where I had an opportunity to see firsthand the work 
being done to promote greater respect for human right and democracy by 
the U.N., the National Democratic Institute [NDI], the International 
Republican Institute [IRI], USAID, and many other organizations, 
working both in Belarus and abroad.
    I just returned from a week in Belarus, attending the 2017 annual 
session of the OSCE Parliamentary Assembly. That provided hundreds of 
parliamentarians from throughout the OSCE region an opportunity to 
engage the government of Belarus and leading democracy and human rights 
activists. The Helsinki Commission's mandate is to monitor and 
encourage compliance with the Helsinki Final Act and subsequent OSCE 
commitments, especially in the human dimension. The Helsinki 
Commission's Belarus activities have included hearings, public 
briefings, congressional resolutions, press releases, direct contacts 
with Belarusian officials, as well as, of course, with the democratic 
opposition and civil society.
    But the most visible expression of Congress' interest and concern 
has been the now three iterations of the Belarus Democracy Act, public 
laws signed by President Bush in 2004 and 2006, and most recently the 
Belarus Democracy and Human Rights Act of 2011, signed by President 
Obama. It's rare for countries, at least those in which there's not a 
war or some other major crisis, to get that kind of attention in 
Congress. Each of the three Belarus democracy acts was authorized by 
Representative Chris Smith, the co-chairman of the Helsinki Commission. 
And I'd like to list just a few of the highlights for you before we 
begin.

    <bullet>  The Belarus Democracy Acts stated a U.S. policy of strong 
support for the Belarusian people to live in a free and independent 
country with human rights, democracy, and the rule of law, sending the 
signal of solidarity with the Belarusian people.
    <bullet>  They call for the cessation of human rights abuses, and 
the immediate and unconditional release of political prisoners--a goal 
which was realized in 2015--and the restoration of their rights.
    <bullet>  They call for targeted sanctions, including visa denials 
and blocking of the assets of senior officials and those engaged in 
human rights and electoral abuses, and the undermining of democratic 
institutions, and economic sanctions against major state-owned 
enterprises.

    At the same time, the legislation explicitly opens the door to the 
reevaluation of U.S. policy towards the Belarusian government should it 
take steps toward democracy and respect for human rights. A 
congressional delegation led by Senator Wicker which just returned from 
Minsk on July 8th made that clear, both in press engagements and in 
meetings with President Lukashenko and with civil society leaders that 
the U.S. is willing to move forward under the new U.S. administration 
if we see progress being made by the government of Belarus on key 
democracy and human rights issues.
    So what are the prospects for us being able to move forward? To 
answer that question, we have assembled a great panel for you today of 
people who have been working on Belarus for years. Let me quickly turn 
to introducing our speakers, who are going to give us a good overview 
and a basis on which to have a discussion. We're very much looking 
forward to the participation of our audience in a question-and-answer 
session that will follow their presentations.
    On my far left, and on your far right, Sanaka Samarasinha has 
served in his current capacity as head of the U.N. in Minsk since 
January 2013. Before coming to Minsk, Mr. Samarasinha has served in 
various offices of the U.N. and the United Nations Development 
Programme [UNDP], including as senior advisor to the U.N. resident 
coordinator in Iran, and deputy resident representative of the UNDP in 
Myanmar. Sanaka and I were both working in Minsk when Belarus released 
all of its political prisoners in 2015. And Sanaka also convinced me to 
join in a unique train ride around Belarus promoting U.N. projects. 
Very few Western diplomats can match his years on the ground in Belarus 
and contacts with human rights and democracy activists and government 
of Belarus officials.
    Katie Fox is deputy director of the Eurasia Department at NDI. Ms. 
Fox oversees NDI election monitoring, civic organizing, and political 
party development programs in the former Soviet Union with a focus on 
Ukraine, Russia, Belarus, and Moldova. I had the pleasure of meeting 
Katie in 2014 before I began my assignment in Belarus, and found the 
overview I got on activities there very helpful to me as I began my 
work there.
    Stephen Nix joined IRI in October 2000 as regional program director 
for Eurasia. In that position, he oversees programs in Belarus, 
Georgia, the Kyrgyz Republic, Moldova, Russia, and Ukraine. Mr. Nix 
joined IRI after serving for two years as senior democracy specialist 
at the U.S. Agency for International Development. Mr. Nix is a 
specialist in political party development and judicial and legal reform 
in the former Soviet Union.
    As you can see, we have three highly qualified experts to provide 
us an overview. After we've heard from them, I'll moderate a question-
and-answer session. So let us start in reverse order with you, Steve, 
if you don't mind.
    Mr. Nix. Good morning. Thank you, Scott, for the introduction. I'd 
like to begin by thanking Senator Wicker and Representative Smith for 
their leadership on this Commission and the fact that this Commission 
is again focusing attention on a very important country. Belarus is 
important to the strategic interests of the United States for a number 
of reasons: Belarus' cooperation militarily and economically with 
Russia, and also due to the increased West presence in the Baltics and 
the area. So, again, thank you for this opportunity and I ask that my 
remarks be entered into the record.
    I'm the Eurasian Director for the International Republican 
Institute, a not-for-profit democracy-building organization based in 
Washington and working in over 80 countries throughout the world. Our 
roots harken back to Ronald Reagan, whose unshakable belief in 
democracy was one of his principal aims and doctrines while president.
    I'll start by saying that we certainly applaud Belarus' expressed 
intent at engagement, but we've seen very little concrete action taken 
on the issues that the United States has offered in terms of 
engagement. These issues include amending the election code, 
registering political parties, and halting the practice of arresting 
citizens for political activity. In reality, democratic reforms in 
Belarus, including economic freedoms, remain stagnant and rarely move 
beyond the level of roundtables or diplomatic discussions.
    As evidenced most recently in February and March of this year, 
raids of human rights defenders' offices and mass detentions of 
opposition activists still occur in Belarus. If we look at the level of 
freedoms enjoyed by citizens of Belarus, very little has changed. The 
OSCE notes that elections are undemocratic and do not meet 
international standards. The most recent Freedom House ``Freedom of the 
World Report'' classifies Belarus as ``not free,'' largely due to human 
rights violations and incursions on media freedoms. The government owns 
Belarus' sole internet service provider, and often blocks independent 
media sites, as it did during the protests that I noted.
    At the beginning of this year, Belarusian citizens, unable to 
secure jobs, began receiving notices that they owed money for what's 
known as the ``parasite tax.'' This unemployment tax triggered 
discontent and pockets of protests and resulted in major protests in 
five large cities, with thousands taking to the streets across the 
nation throughout the months of February and March. Police and security 
forces in Belarus aggressively attacked these peaceful protests. They 
caused injuries to hundreds.
    More than 1,000 opposition demonstrators, political and civil 
society activists, and community leaders were arrested during this 
crackdown. Many of the protestors, middle-aged working-class residents 
of regional cities, actually form the base that voted for President 
Lukashenko in the past. Their participation in these protests is 
indicative of a growing feeling of betrayal and of economic 
desperation, and shows a fracturing in society.
    Regarding pro-democratic opposition, on the other hand, we are 
seeing steps. I want to discuss two key examples. The first is the 
United Civic Party, which has succeeded in having one of its members, 
Anna Kanopatskaya, be elected to the Belarus Parliament in 2016. Those 
elections were not deemed free and fair, and the parliament is under 
heavy executive control. Nonetheless, Ms. Kanopatskaya has made a name 
for herself providing insight as to how the state is run, and using her 
position to highlight certain issues, to travel to the regions, in an 
effort to connect citizens with their government.
    The other example is Tell the Truth, or Havary Pravdu, a citizen 
action group led by Tatyana Karatkevich, who challenged Lukashenko as 
the only opposition candidate in the 2015 presidential election. While 
the official election result from the CEC listed Karatkevich as 
receiving 4.4 percent of the vote, independent polling showed that 
nearly 20 percent of voters supported her candidacy. The same polling 
showed that Lukashenko's result was only 51 percent--far different than 
that reported by the CEC.
    Since that campaign, Karatkevich has continued to be active 
politically, and using her strong name ID by traveling and advocating 
on local issues, talking to small business owners, urging municipal and 
local ministry officials to meet with citizen groups, and raising 
awareness of social service problems. These two women represent change 
in Belarus. The work of Kanopatskaya and Karatkevich, and the 
community-level work of hundreds of activists, show that the citizens 
of Belarus are looking for ways to improve their lives.
    This spring we saw segments of the entire population becoming 
active in protesting. Belarusians have discovered the power of 
unifying, standing together, to drive change. More and more people are 
finding the courage to stand up for a better life. Further fostering 
this civic activity requires a localized approach. And next year's 
municipal elections, preliminarily planned for February of 2018, 
provide an important opportunity for change in Belarus. Should the 
government allow free and fair elections in 2018, we would expect to 
see a number of victories by the political opposition. That type of a 
result would be convincing evidence that the Government of Belarus is 
committed to conducting open and competitive elections.
    IRI has assisted pro-democratic forces in their struggle for 
democratic change since 1997. We have programs to help political 
parties refine their message, connect up with constituents, and discuss 
issues that are of importance to the citizens of Belarus. These 
programs are the foundation of IRI's mission to support democratic 
organizations, and help their leaders and activists prepare for public 
policy roles in a future democratic Belarus.
    And responding to developing trends in the country, IRI has shifted 
its programmatic focus in the last few years to community-level 
activism. IRI firmly believes that the future development of Belarus 
depends on unleashing the potential of its citizens, allowing people to 
speak, assemble, and earn a living in the way they see fit. IRI also 
works to support political participation by the youth in Belarus which, 
as we all know, represents the future. Many in this generation see 
their country falling behind regional neighbors, who have made great 
strides in development and exposure to the ideas and practices of 
democracy. We think this is a key step in providing context for these 
future leaders.
    So, in sum, IRI will continue to monitor the limited democratic 
space that exists in Belarus, and will continue to work with the 
opposition to find ways to continue their struggle for democratic and 
true change in Belarus. Thank you for this opportunity and I'll be 
happy to respond to any questions.
    Mr. Rauland. Thank you for presenting IRI's views on the current 
situation in Belarus so well, Steve. We really appreciate that.
    Let's move on to Katie Fox from NDI.
    Ms. Fox. Thank you, Scott. And thanks to the Commission for holding 
this briefing today.
    As Steve said, Belarus is an important country; it borders the EU 
and NATO and is in the heart of Europe, and can sometimes be 
overshadowed by its larger neighbors. NDI has been working in Belarus, 
exchanging ideas with, and responding to advice from democratic parties 
and civil society since 2000. I agree entirely with what Steve said; 
that Belarus is not today a free or democratic society, for all the 
reasons that you mentioned, Steve. I'm going to focus my time, rather 
than repeating that, to expand a little bit on some of the modest 
openings that may be available, that may be leveraged, to make 
ultimately broader democratic gains, using a mixture of aid and 
engagement.
    So what are those openings? First, there is growing evidence that 
the Belarusian Government is not monolithic. As Steve mentioned, there 
were two opposition members essentially appointed to parliament in what 
were very flawed elections in 2016. However, once there, they have 
found support among their colleagues for opening up the parliamentary 
body in some ways, such as to public hearings and meetings with voters. 
There are also meetings taking place, I believe, between opposition 
parties and members of parliament on such issues as health care and 
drug abuse.
    Also, in regard to the parasite tax--the so-called parasite tax and 
the protests against it--as Steve pointed out, the government did react 
with arrests, as they usually do. But it's important to also note that 
they made some concessions to a movement that was clearly grassroots 
and had support throughout the region. The government offered meetings 
or receptions with citizens, and they narrowed the scope of those 
affected by the tax.
    The second point I want to make is to pick up on what Steve said in 
regard to potential democratic openings. As Steve mentioned, the 
official polling data on the last presidential election in 2015 was 
different from polling which NDI and IRI analyzed, which showed that 
the vote for the opposition candidate was somewhat higher, and, 
importantly, that she was reaching people outside of the traditional 
opposition electorate, people who had not voted for the opposition 
before--young people, women, urbanites--who responded to her message of 
peaceful change, showing that that electorate can be expanded.
    So then the last potential opening and positive sign I want to 
focus on is the growth and development of the democratic parties, which 
Steve also mentioned, and their reaction to the parasite tax. The 
parties in Belarus have often been criticized for being insufficiently 
attentive to the concerns of ordinary Belarusians. But in this case, 
they knew that this tax was important to their constituents long before 
the protests broke out. They held meetings with citizens. They 
incorporated their positions on the tax into their parliamentary 
election campaigns. And that's growth.
    In addition, we saw in the last elections the parties organizing in 
a more professional manner. We saw the democratic parties increasingly 
refraining from attacks on each other. And finally, we saw that party 
coalitions that previously existed only on paper were being replaced by 
smaller, but more pragmatic and genuine, coalitions of parties with 
shared ideologies.
    With that in mind, I would like to take a few minutes to offer some 
thoughts on future engagement in Belarus. Diplomacy, including that of 
multilateral groups like the OSCE, will be most effective if it, first, 
focuses on systemic changes as conditions for greater engagement with 
the Belarusian Government. There's great humanitarian value in prisoner 
releases, but of course new prisoners can always be taken and held as 
bargaining chips. Whereas systemic changes, such as allowing the 
registration of parties, removing the penalties for assembly and other 
legitimate political activities and reforming the electoral code to 
ensure real competition, would help to lay the building blocks for long 
term, sustainable progress.
    And in regard to these systemic changes, particular emphasis should 
be placed on the electoral system reforms recommended by the OSCE, as 
well as independent Belarusian monitoring groups such as Human Rights 
Defenders for Free Elections and the Right to Choose Coalition. These 
recommendations include opposition representation at all precinct 
election commissions, full access for party and nonpartisan observers 
to report on the vote counting and tabulation processes.
    And finally, in the realm of diplomacy, it is important that 
dialogue and engagement continues, but prioritizes outreach to civil 
society and parties, as well as the government. And I commend the OSCE 
PA for doing that in a very effective way, and bringing those groups 
into the room on that recent trip.
    Finally, a couple of quick words on the role of outside assistance 
to Belarus. We recommend that it should--in this period of relative, 
even if limited, opening of political space--it should be focused on 
helping democratic parties and civic groups take advantage of that 
opening to grow. It should enable them to attract new supporters, 
present alternative ideas, and identify and reach out to youth and 
other potential new democratic voters.
    Second, assistance should treat information warfare like the urgent 
international security threat that it is. As Russian speakers, 
Belarusians are consumers of the propaganda and disinformation that 
permeates the Russian language information space. This makes it vitally 
important that there is support for the few sources of independent 
information that Belarusians get. There is, for example, Tut.by, a 
large independent news portal. NDI has also helped to start e-Pramova, 
which is an online platform for discussion and debate, including on 
politically themed issues, which reaches more than 700,000 Belarusians 
each month.
    In conclusion, I am going to quote from a Belarusian democratic 
leader, who said: ``We ask the U.S. to support our goals--democracy, 
social stability, and a better life for Belarusians. To support these 
goals by maintaining a dialogue with both opposition and government, 
and with aid programs that give civil society, independent media, and 
democratic movements inspiration and vision. With this, we can bring 
peaceful changes for our country.''
    Thank you very much.
    Mr. Rauland. Thank you very much for your testimony, Katie. I'm 
glad to see that you and Steve both emphasized the opportunities that 
we have in 2018 with the local elections. I hope that's something that 
policymakers both here and in Europe can focus on in the months ahead. 
Thank you also for mentioning future engagement, what you see there as 
possibilities, and for bringing up that question of information 
warfare. These may be topics we can come back to in the question-and-
answer session.
    And now I'd like to turn the floor over to Sanaka Samarasinha to 
tell us a little bit about what the U.N. is doing in Belarus, and what 
your perspectives are on where things are at, and the opportunities for 
us moving forward.
    Mr. Samarasinha. Thank you very much, Scott. And thank you as well 
to the Helsinki Commission for bringing me back to what I consider to 
be my second home. As Scott knows, I went to university here and I was 
a Maryland law student, amongst other things, and attended George 
Washington University. So it's nice to be back. It's not often that the 
U.N. gives me the opportunity to come to D.C. They keep bringing me to 
New York, but I'd prefer to come to D.C. more often.
    That said, I also want to say thank you to my colleagues here at 
the table, because I think they've given you a pretty accurate picture 
of the issues and the challenges that face Belarus and Belarusians on a 
daily basis. In my short presentation, let me try to focus, if you 
will, on the engagement dimension. Since we've acknowledged that 
Belarus has human rights challenges, then the question is, what do we 
do about it and how do we do it in such a way that actually gets us, if 
even incremental progress, progress.
    The U.N. has been working in Belarus for 25 years this year and its 
focus has been on development activities. So going back to the early 
years, it was post-Chernobyl. There was quite a lot of focus on health 
and economic development of Chernobyl-affected communities. Belarus 
happens to be in the only region in the world where HIV is on the 
increase--Russia, Ukraine, Belarus. This is mostly because of injecting 
drug use. And so the U.N.'s been working for many years on dealing with 
these issues, dealing also with the stigma of people who are most at 
risk--men having sex with men, female sex workers. As you can imagine, 
this is not an easy subject, but it has been something that Belarus and 
the U.N. have been working closely on for many years.
    Another area that has been the focus on our work is on fighting 
human trafficking for some years, with a degree of success. Now, the 
degree of success may differ depending on who you ask, but it has been 
a significant area of work where the U.N.'s been working with a whole 
range of stakeholders. Refugees, there are a number of refugees, as you 
know, recently who have been coming over from Ukraine, from Syria, from 
Afghanistan. And so the U.N. refugee agency works there. Children's 
rights, juvenile justice, and environmental rights--these are 
traditionally the areas where we've been engaged for many years.
    Now, when I first came to Belarus in January of 2013, I still 
recollect a very well-meaning person--who turned out then subsequently 
to become a friend--this senior official told me something as I was 
going to have my first meeting with the foreign minister. He said, 
well, you know, Sanaka, we know that you have a human rights 
background, and have been a journalist, but I think it would be very 
good if you don't mention human rights in your meeting. And I actually 
was a little taken aback. I think it was very well meant. I think the 
idea was, listen, don't start off your very first meeting by talking 
about human rights. And I thought it was very important that I did. The 
reason was that I wanted it to be clear that the U.N.'s work must 
involve working on human rights, as it did in every country, not just 
in Belarus.
    And so it needed to be clear. It needed to be up front. And I also 
wanted it to be clear that I was not there, in my particular role, with 
a big stick. There are parts of the U.N. which have a particular role--
as you know, Belarus is part of several U.N. treaty bodies. It's part 
of the Human Rights Council. Currently, for the last five years, there 
is a special rapporteur who has been appointed by the Human Rights 
Council specifically for Belarus, who has not been able to come into 
the country for many years--although he was in with Scott and me in 
Minsk at the same time recently, not in his capacities specifically as 
special rapporteur, but as a Hungarian delegate to the OSCE PA annual 
meeting. But nevertheless, Belarus did let him into the country.
    But my job, I felt, was to remind Belarus of the obligations that 
it has voluntarily signed onto, and to help find ways in which they 
could live up to those obligations. And this is the job of any U.N. 
representative in any country. And so it was not going to be any 
different in Belarus. So from that first meeting, where I was advised 
not to mention human rights, it really is quite interesting for me now 
that two weeks ago--Scott, you were there--when during President 
Lukashenko`s opening speech to the Parliamentary Assembly of the OSCE 
he focused on human rights--on the death penalty issue and on the 
national human rights action plan.
    So one of the ways--one of the things that struck me from the very 
beginning that needed to be done, was to find a space for people to 
talk to each other, because I got a very early feeling that this 
understanding of human rights was very different depending on who you 
talk to--within the country to start with, but of course also in terms 
of the different countries. And so one of the tasks that I went ahead 
and set for myself, is to try to build dialogue between countries--to 
try to build dialogue that went beyond the Ministry of Foreign Affairs, 
because if the business of human rights was simply in the Ministry of 
Foreign Affairs, it is clear this is simply for external consumption.
    And I think the Ministry of Foreign Affairs--and the Minister of 
Foreign Affairs--is also very keen that others in the government 
understood that human rights should not be the domain simply of the 
opposition or the NGOs, but human rights must be, first and foremost, 
the business of the government of every country, because it is for the 
people of the country, who the government represents and services in 
response to the needs of the people. So this is one.
    Second, I felt that it was really important not to focus 
selectively on this human right or that human right. Governments 
typically would like to focus on the socioeconomic and maybe cultural 
rights, depending on the country. And external partners, opposition 
politicians, and NGOs like to focus on civil and political rights. This 
happens in Sri Lanka. It happened in the United States, everywhere. So 
it was really important to understand that human rights cannot be 
divided. Human rights cannot be selected. Human rights are universal. 
And it doesn't depend on which country you're in or what cultural 
background you have.
    And the third thing--and then I've got one more thing to say after 
that--and the third thing is that I've also discovered--this is not 
unusual. It happens in my country too, in Sri Lanka. But I also 
discovered that one of the key things I need to try to do is find a 
safe space for Belarusians to talk and listen to each other. It seemed 
to me, that Belarusians when they disagree, no matter who they are--
whether they're government or opposition or NGOs or private sector--
when they disagree, they prefer to talk to us, the international 
community, foreigners, even if we disagree with them.
    And so we needed to find a safe space to do that. And we worked 
very hard--in the Q&A we can get into it--we worked very hard to do 
that, and organized several events. I think these are first--the 
stepping stones to something greater.
    And I just want to finish off then with what I considered to be 
some key principals. Scott said to me, give some examples, because I 
know you have them, for each of them. But I'm running out of time, so 
I'm just going to give you the principles and certainly in the Q&A we 
can get to the examples.
    I think the most important thing, for me, in my almost five years 
in Belarus, is you've got to be principled, but you've got to be 
patient. I thought it is critically important also to be respectful and 
to be constructive. Then I think you can't do this business of human 
rights, of course, unless you believe in it in the first place. But you 
have to be consistent about what you believe and what you say, and you 
have to be transparent.
    And I think the context of countries like Belarus is important. I 
don't speak Russian, I knew very little about the Soviet Union space, I 
come from an island, Belarus is landlocked, I like spices in my food 
and I can say that's one thing I miss in Minsk. [Laughter.] So what did 
I know of? What did I have in common in Belarus? A hell of a lot, it 
turns out. And over the years, I've discovered that Belarusians, like 
us Sri Lankans and Americans, are creative. So if you want to do human 
rights in Belarus, you've got to be creative too.
    I'll stop there. Thanks a lot.
    Mr. Rauland. Well, thank you very much for your presentation, 
Sanaka. And I hope that people will feel inclined to ask Sanaka to talk 
about some of the examples of the principles he named. I think those 
are not only good principles for doing human rights work in Belarus and 
elsewhere, but are pretty good principles for being successful in life.
    I'd like to thank all three of our panelists for your 
presentations. This is really a great way for us to get into our 
question-and-answer session. But I have a bonus round for you before we 
get there. We have the Belarusian Charge d'Affaires with us today. We'd 
like to give him the opportunity to share the viewpoint of the 
government of Belarus on this topic.
    So, Pavel, if you'd like to join us--Pavel Shidlovsky, the 
Belarusian Charge d'Affaires, please deliver your statement.
    Mr. Shidlovsky. Dear friends, ladies and gentlemen, first of all I 
would like to thank the Helsinki Commission and Scott Rauland in 
particular for the invitation to speak at this briefing, which I 
believe is both important and timely.
    I take this event as an indication that the Helsinki Commission and 
U.S. Congress and Government have Belarus on their mind and are seeking 
ways to expand engagement with it. We can only welcome that, and my job 
is to make sure that the proposals expressed here today will be 
received and considered in Minsk.
    As other countries of the former Soviet Union, Belarus appeared on 
the political map of Europe just recently. And the U.S. was the second 
country in the world to establish, 25 years ago, diplomatic relations 
with Belarus, and we value that. During this historically short period 
of time, we have built a truly independent country which forges a 
mutually beneficially model of cooperation with all states, in 
particular with its neighbors, which pursues a consistent, multi-vector 
foreign policy, one of engagement, not of estrangement--which tries to 
balance its interests between various poles of power in the currently 
unstable geopolitical environment, which spurns the false choice 
between West and East.
    Twenty years ago, Belarus unilaterally and unconditionally 
relinquished possession of nuclear weapons. And I believe that this 
strategic decision has positively influenced stability and security in 
the world, and relations with Europe and the United States. On many 
occasions, Belarus has proven its reputation of a security donor. 
Together with the U.S., and with European partners, we seek to deliver 
our input to managing global and regional problems, countering modern 
challenges and threats. Recently Belarus has intensified its efforts to 
establish tight defense cooperation with all neighbors, and with the 
United States. And it is in that spirit of cooperation and transparency 
that we invited representatives of NATO, among other countries and 
regions, to observe the Belarus-Russia strategic joint exercise, Zapad 
2017 in September this year.
    Belarus has demonstrated a desire for more active participation in 
regional and international activity. We provided a venue for the Minsk 
agreements [on Ukraine], and for the trilateral working group. The 
Minsk agreements are universally considered as the only tool for 
resolving the situation in eastern Ukraine. We have just held the 26th 
annual session of the Parliamentary Assembly of the OSCE. All 57 OSCE 
participating states sent their national delegations. Hosting this 
marquee event, Belarus aimed to promote the assembly's efforts to 
bridge differences and re-establish trust in the OSCE region. The Minsk 
session was called one of the smoothest sessions ever. The head of the 
U.S. delegation, the Honorable Senator Roger Wicker, praised the high 
level of organization of the session.
    The president of Belarus suggested launching a discussion in the 
OSCE on a new Helsinki process during the annual meeting. A number of 
resolutions were adopted at the session on such topical issues as 
combatting terrorism and human trafficking, managing flows of refugees, 
and countering religious discrimination. They became part of the Minsk 
declaration. Belarus sponsored a resolution on measures against new 
psychoactive substances, which was adopted all but unanimously. I'm 
pleased to say that one of 44 co-sponsors was Congressman Chris Smith. 
Belarus organized two side events on new psychoactive substances and on 
combatting trafficking in persons. Chris Smith was the keynote speaker 
at the trafficking in persons side event. The Swedish delegation 
initiated a side event on the situation in Belarus.
    I say all that to demonstrate to you that at these events civil 
society representatives were present and did show the openness of 
Belarus to engagement with civil society, including on human rights. 
OSCE Assembly Secretary-General Roberto Montella thanked Belarus for 
its hospitality, openness for dialogue, and sometimes for criticism. 
Minsk reaffirmed its status as a venue for effective convocation of the 
largest international fora.
    Belarus has always regarded normalization of relations with the 
United States as a priority of its foreign policy. Yes, we have had our 
ups and downs, but never had the leadership of Belarus underestimated 
the importance of full-fledged engagement with the U.S. We enjoy 
positive momentum in relations with your country. We have developed a 
constructive dialogue on political, security, nonproliferation, law 
enforcement, trade, interregional, and, of course, human rights issues. 
We are committed to continuing, with the Trump Administration, the path 
that we have started with predecessors. We are grateful to the U.S. for 
making this rapprochement possible, for supporting our sovereignty and 
independence. Belarus and the European Union have already achieved 
tangible results in our bilateral cooperation.
    That now includes the launching of a Belarus-EU coordination group 
and mobility partnerships, intensification of political contacts, 
sectoral dialogues, cooperation with European financial institutions, 
and engagement in the field of international technical assistance. We 
held three human rights dialogues with the United States. Yesterday in 
Brussels, the Belarusian delegation conducted the next round of our 
human rights dialogue between Belarus and the European Union. We have 
identified goals with our Western partners--we have identical goals 
with our Western partners regarding protection and promotion of human 
rights. The only difference is the pace of reforms. We cannot change 
the situation momentarily.
    The national human rights action plan adopted at the level of the 
president in Belarus is a crucial element of our framework for the 
protection of citizens' rights and freedoms. We have established a high 
level advisory group on the rule of law and access to justice. Belarus 
has set up an interagency group of experts to analyze recommendations 
of the OSCE ODIHR, and to further improve electoral law. Belarus has no 
backlog concerning reports on human rights treaty bodies of the United 
Nation. Belarus successfully passed two cycles of the universal 
periodic review on human rights. And we took 160 recommendations out of 
260. And 100 we could not take because of either lack of resources or 
lack of competence.
    I will stop here, because I hate to stand between you and the 
distinguished panelists--but I'm happy to answer your questions on a 
one-on-one basis, if you are interested to learn more on these 
subjects.
    Thank you.
    Mr. Rauland. Thank you very much, Pavel, for your views on this, 
the views of the Government of Belarus, and for mentioning the OSCE 
Parliamentary Assembly. Belarus`s management of the event really was an 
impressive performance. The American delegation was very impressed with 
the organization, with the opportunities for engagement, with not only 
the Government of Belarus but at the Swedish side event you mentioned, 
where a full range of people belonging to the opposition parties, to 
the media, to human rights activists participated. So congratulations 
on a job very well done.
    OK, now I want to, again, thank everybody for their contributions 
to the first part of the briefing this morning. And I want to open it 
up to the audience now for your questions. This is being streamed live 
on Facebook Live. So we will come around with a microphone for you so 
that everybody following on Facebook Live can hear what it is you have 
to ask our distinguished panel here.
    So if you would raise your hand if you want to ask a question. And 
also, if you can tell us who you are and what organization you 
represent, that would be very helpful to all of us.
    Do we have a first question out there? Up front here--most of us 
here know you, but go ahead and let the worldwide audience know who you 
are.
    Questioner. Orest Deychakiwsky, until relatively recently a policy 
advisor with the Helsinki Commission who covered Belarus, among other 
things.
    Thank you very much for your very comprehensive presentations. I 
want to start drilling down just on one subject that Katie raised, and 
that is the influence of Russian propaganda and the Russian media space 
being extremely prevalent in Belarus. You mentioned the important role 
of independent media to counter that. I was wondering if any of you 
could comment on the role of international broadcasting as well, let's 
say the Belsats or Radio Liberties or even any kind of EU media 
outlets, because arguably from a geopolitical perspective they've 
become even more important now, given certain realities, to counter the 
Russian propaganda effort.
    Thank you.
    Ms. Fox. Thank you, Orest.
    That's a very good question. And I should have mentioned when I 
spoke that you're right, broadcast is very, very important. And NDI has 
formed a partnership with Belsat, with Radio Liberty, with a number of 
other radio outlets to expand the reach of the content on this online 
site I mentioned. It's kind of an online town hall. We also have 
candidate debates and issue debates. And those debates in particular 
have also been broadcast by Belsat. And through that method, they've 
reached millions of people, as opposed to hundreds of thousands--very, 
very, very important resources, without a doubt.
    Mr. Nix. I would just add, Orest, to your question, media's so 
important. Whenever I brief a member of Congress to Belarus, trying to 
frame the situation--so these are for people who've never been to the 
country and don't know much about it--I say to them: Imagine running 
for Congress your first time. And imagine not being able to have access 
to TV, no access to radio, no access to direct mail. And people are 
pretty shocked to realize that the opposition in Belarus doesn't have 
access. There's some limited access around election time, as you well 
know, Orest. But again, it's one of the needs of the civil society 
organizations and political organizations that advocate for democracy 
and human rights in Belarus to get that message out. It's incredibly 
difficult to do so without that type of access.
    So we welcome Belsat. We are hoping that Belsat will continue and 
enlarge and expand and the types of activities that Katie has referred 
to, because it is an urgent need. It's one thing to take polling data 
and have the right message as a political party trying to compete in an 
election. It's another thing to transmit that message across a nation 
of 9 million people without access to electronic media. So media is 
very, very important. And again, as I mentioned in my testimony, 
Belarus controls the one Internet service provider in Belarus.
    Mr. Rauland. Sanaka, did you have a contribution there?
    Mr. Samarasinha. Yes, just a quick comment. Let me first say, being 
a journalist myself, and having had to, in part because of my 
journalistic work, leave my country for almost a decade, I do not 
undervalue the role of the media at all. But I think in Belarus, it's 
more a generational issue. The smartphone penetration is 114 percent in 
the country. Pretty much everyone carries at least one phone, right? 
Social media, everyone under the age of 35 is on it. And so I think 
there are different ways in which people can be reached. And, you know, 
it's not just the traditional media. In fact, amongst the young people, 
when I talk to them and ask, did you see my interview on Channel One or 
Channel Two? And they're like, oh, we never watch TV. What are you 
talking about, right? This is true--I mean, my kids don't watch TV 
either. I'm sure your kids don't either. So they get their news from 
other places. This is one thing.
    The second thing, let's also not undervalue human contact. In 
Belarus, Scott, as you remember, there are more Schengen visas that are 
issued per capita than any other country in the world--more than a 
million, you know, for a population of nine and a half million. So, 
yes, I think that there is still quite a degree of influence that the 
traditional media has, especially with the older generation, the older 
population. But you know, Tut.by is a good example, where they do stuff 
online. And I think it's really good, the kind of influence that they 
have. But there are many ways to skin this cat, is the way I see it.
    Thanks.
    Mr. Rauland. Any other questions from the audience at this time? 
Over there.
    Questioner. Thank you to the panelists for coming to speak with us 
today. My name is Charlie King [sp]. I'm interning in Senator Bill 
Nelson's office.
    The panelists acknowledge that Belarus is a relatively young 
country, and I think it's not uncommon for states in their conception 
to struggle with issues of human rights. So, when you're addressing 
this issue, how do you ensure that, while it is very important that 
this process occur sooner rather than later, not to rush it, and that 
the changes that are made are indeed long lasting and systematic 
changes, as opposed to more temporary?
    Mr. Rauland. Would you like to start and then move this way?
    Mr. Nix. Sure, I'll be happy to respond to that.
    Well, again, we talked about engagement. And in my view, engagement 
merely for the purposes of having engagement is not productive. 
Engagement needs to result in tangible change. And we're still waiting 
to see that. In terms of the sequence and the timing, there's no 
science on this. Countries have developed at various rates. Former 
Soviet republics--you look at the Baltic countries in comparison--EU 
members, NATO members, fully developed private economies, hardly any 
state ownership of business. And then you look at other countries in 
the region. So every country develops along its own path based on its 
history, its traditions, its culture.
    But I would just note that change is needed. And today, the IMF 
announced that it had broken off negotiations on the possibility of 
further financial assistance to Belarus. And the basis for that 
decision--and it's all in the public realm, you can go read about it--
is the fact that the IMF had found that Belarus had not achieved 
sufficient reform of their economy. So again, change is essential in 
order to receive benefits and for recognition and for normalization of 
relations. And so while no one's saying that all of this has to happen 
tomorrow, we need to see tangible results, in my view, in the short 
term.
    Thank you.
    Ms. Fox. Thank you for that question. I would say two things in 
terms of making sustainable changes. First, as I said in my testimony, 
when the U.S. is putting forth its agenda, for engagement with the 
Belarusian Government, it should focus on things that have systemic 
effect, rather than affect only a sole individual. So removing 
restrictions on the peaceful assembly and freedom of speech, rather 
than releasing a single prisoner who may have been locked up for 
violating those things.
    The other more global thing is that in the long term human rights 
and other protections will be best ensured through a more pluralistic 
society, in which there are a number of different visions and political 
parties competing with each other for Belarusians' attention, so that 
if one is not delivering on human rights or whatever else Belarusians 
want, there's an opportunity for them to vote for someone else. And 
that is the kind of society that NDI works for.
    Mr. Samarasinha. I recently gave a TED Talk about change is coming 
and you better not hide because it's going to catch up with you 
eventually, right? I was talking about Belarus, but it wasn't only 
about Belarus. I think it's true about the entire world. But, you know, 
it depends on what you mean by change and what kind of change you're 
talking about.
    So if we look at Belarus and poverty, for instance, in 2000 
absolute poverty was over 45 percent. By 2015, it was less than 5 
percent. Now, that's change, right? If you consider that practically 
100 percent of kids are enrolled in school, that's change. The quality 
of education, you can argue, is it as good as it should be, is it where 
it should be? These are things that we need to work on. Forty percent 
of Belarus is covered by forest, and they preserve it. This is quite 
unique for Europe.
    So this is positive change, and we must acknowledge it, because if 
you don't then I think what happens is that we politicize some very 
specific human rights issues, very important ones, which then become 
something that is perceived as being used, in which case the response 
is going to be transactional. OK, so you want me to do this? Fine, what 
are you going to give me in return, right? And so one of the things 
I've really tried to do is to depoliticize these issues, these very 
important issues, on the whole range of human rights. So, give credit 
where it's due because there are some very good things that have 
happened in that country, and then let's work on those things that 
still need to be worked on.
    Acknowledging that it is a young country, but young countries have 
gone further in some cases. So that's not an excuse. And old countries 
haven't even caught up in some cases. This is not an excuse, because 
Belarusians have the capacity. I mean, they're amazingly intelligent, 
sophisticated people. So that's not what's holding them back, right? 
It's the issue of systemic change. And let me, on the issue of systemic 
change, just also mention, since Pavel mentioned the high level 
advisory rule of law group, that was my creation. I co-chaired this 
high level rule of law group with the deputy head of the presidential 
administration, the minister of justice, the EU head of delegation.
    Now, why did we do this? We did this because I wanted to find a way 
to bring those institutions that don't have contact typically with the 
international community to the table to talk about the issues that 
we're talking about now. But if you say human rights, they always say, 
oh, go to the Foreign Ministry, right? So I went and said to the 
minister of justice, listen, let's talk about access to justice and 
obtaining legal remedies for people, especially who are vulnerable and 
disadvantaged. One of the people meeting said, oh, that's the Ministry 
of Foreign Affairs. Why don't you go talk to them? And I said, really? 
But it is access to justice. And the minister of justice said, no, no, 
no, no. That is my ministry. That is justice.
    So taking this thing, that human rights is the domain of a few 
politicians, which must be dealt with by only the foreign ministry, is 
a very important shift. And if you want it to be systematic and 
sustainable, we've got to make sure that we bring the whole of 
government and the whole of society together. Now, here is another 
challenge. I mean, while we're working through this it's really 
important that the range of civil society stakeholders are at the 
table. This is a very big challenge because, as you know, at the moment 
there is this real issue--are they registered organizations? Are they 
not? And if they're not registered organizations, do they even exist? 
And if they don't exist, why should we talk to them?
    Well, they do exist and they have ideas and opinions. It's just the 
question of how to make it constructive. And so one of the things that 
we're working very hard on is to try to create a safe space where 
people can talk constructively to each other and creatively. And so 
it's a big project that we're about to launch with the EU just to do 
that, to build capacities of people on both sides of the divide to be 
able to listen and talk to each other.
    And the last thing is on the national human rights action plan, 
which is also one of those things I worked really hard on behind the 
scenes. Look, action plans are action plans. You can do action plans 
for whatever you want and have no action, right? But it was a start, 
because, as I said, from being told not to mention human rights, it has 
become something of a degree of national pride. Now, the challenge is 
to make it operational.
    I mean, we've been discussing this in Minsk. It is very important, 
because one can look at that action plan and say, well, it doesn't 
actually include all of the things that we want. It's very important to 
note that the human rights defenders in Minsk are very supportive of 
operationalizing this plan. So it's very important that we, as 
foreigners, understand that if Belarusians on both sides want this, 
let's help them to not just have it as a piece of paper, but to make it 
something real.
    Mr. Rauland. I have a question I want to get in before we reach the 
end of our briefing, on U.S. assistance. All three of you represent 
organizations that conduct programs in Belarus. You understand the 
importance of having the right resources to be able to get your job 
done. The Trump Administration's budget calls for cuts of over 30 
percent to the Department of State and USAID. And that includes zeroing 
out foreign assistance to Belarus. So what I'd like to ask you is, 
recognizing the previous levels of assistance has been relatively 
modest--7 [million dollars] to $8 million a year for Belarus--what 
would that kind of a change have in terms of impact on the things we 
want to do in Belarus? How would it affect the ability of the U.S. 
Government to achieve its goals?
    Mr. Nix. Sure, I'll be happy to take that. Well, first and 
foremost, yes, for IRI we are funded primarily through USAID in 
Belarus. And those funds are very consequential and important to the 
work that we do there. Obviously, we want to see it continue. We think 
that for Belarus an expansion or an increase in funding would be in 
order, given the opportunities that we see there, if we are funded to 
do this important work.
    With regard to the issue of potential cuts, again, I think we have 
to remind ourselves that we have a process. And the submission of a 
presidential budget doesn't necessarily mean that that will be the end 
result. And I think you've seen the public comments--the very public 
comments made by our Chairman, Senator John McCain, by Senator Graham 
and many, many others about their viewpoint with regard to cutting this 
particular type of funding, and very, very strong support for democracy 
work in this part of the world, particularly the Eastern Partnership 
countries of Ukraine, Georgia, Moldova, and Belarus. So our hope is 
that the thinking in Congress prevails, and that the important work 
that we're doing in those countries continues at the same level--we 
hope, actually, an increase in funding.
    Mr. Rauland. Any thoughts on that, Katie?
    Ms. Fox. Thank you. An interesting and timely question, of course. 
Yes, I agree with everything Steve has said. We're in a budget process. 
But hypothetically the elimination of all budgetary USG support for our 
programs in Belarus would decimate them. I think it would be incredibly 
short-sighted. Our leader, Madeleine Albright--Secretary Albright, and 
also Ken Wollack, have also testified to this effect, that it would be 
contrary to U.S. interests, including its hard national security 
interests, to cut democratic assistance like that, for democracy and 
human rights building.
    I wanted, just in the case of Belarus, to add one more thing; that 
there's no doubt that if the U.S. would disengage completely from 
Belarus that the void could be filled by a different kind of aid. There 
is a Russian Government department called--I'm going to mispronounce 
it--Rossotrudnichestvo. There's a superficial similarity to USAID. It 
has already set up shop in Belarus, in Minsk, and in the regions, and 
is doing a number of aid and cultural and scientific-type projects 
there. I think that's how that void would be filled.
    Mr. Samarasinha. Scott, maybe I could also add, because I worked 
closely with USAID in my early years in Belarus. I also co-chaired 
the--gosh, I co-chaired so many things I've forgotten now--but I also 
co-chaired the Council on International Technical Assistance, with the 
first deputy prime minister of Belarus. And USAID is part of it. So are 
the Russians, the EU, and then of course a number of government 
ministers. The largest donors at the moment are--that we know of, let's 
put it this way--[laughs]--are the EU and Sweden, as a bilateral donor. 
Russia is funding a number of U.N. agencies in Belarus as well, but is 
still not quite at the levels of the EU or Sweden.
    Now, the important thing is this: I remember once President 
Lukashenko said, I believe it was to Bloomberg but I may be wrong, said 
something about you've all focused on Lukashenko but you've forgot that 
there are nine and a half other million people in this country. And 
whatever you may think of that particular statement, I think it's 
really important that there are women who are victims of violence. 
There are women who are being trafficked. There are rural, elderly, 
poor without services. There are 540,000 people with disabilities. 
These are the people who desperately need help.
    And if we can work--not just to hand out grants, because that's not 
sustainable, right--but while we are helping and passing out those 
grants, we are giving them new skills, we are eliminating barriers--
social, physical, financial, policy barriers, legal barriers. This is 
human rights. This is making a difference in people's lives, without 
waiting for Belarus to turn 100 years, right? So I think it's really 
quite facetious to say we want to promote human rights in Belarus but 
we're going to pull out the funding. I mean, I would not recommend that 
at all.
    Finally, let me also add, before I was coming here I was talking to 
another good friend of mine, who Scott also knows, happens to formerly 
be the president's economic advisor. And I said, Kiryl, I am going to 
Washington--what is your view on engagement? You know, before he left--
he's now the ambassador in China for Belarus--so he's doing engagement 
of a different kind, in a different direction, I suppose.
    But he gave me a present. And he held it up like this. And it was a 
rock. And I said, well, that's great. You're giving me--I mean, sticks 
and stones, what is this? You're giving me a stone. And then he turned 
it around, and on the other side of the rock--I keep this on my desk, I 
think it's the best present I've received in my five years there--on 
the other side of the rock, there was a man sitting inside the rock. 
The rock had been broken open and there was a man sitting inside the 
rock. And he said, this is you. And I said, what does that mean? He 
said, you came to Belarus and you find a way. And there you are, you 
broke open the rock.
    Now, I said, that's very flattering, thank you very much. Why was I 
able to do that? Because of people like him who helped me to understand 
how to navigate what is a very complex place. And why did he help me? 
Because he was here on a Fulbright scholarship, and it had opened his 
mind in terms of how to engage. So if you disengage, if you cut the 
funding, then don't expect positive change in the directions that we 
want positive change.
    Mr. Rauland. I'm tempted to wrap things up right there. That's such 
a nice thought to have us close on. However, I do see we have a 
question back there. So please go ahead.
    Questioner. Thank you so much for this informative panel. My name 
is Jasmine Cameron. I work for Justice International. We work on human 
rights and supporting human rights defenders and lawyers, including in 
Belarus as well.
    Do you have any advice on engaging with Belarus for small-scale 
international NGOs? As we've seen in the past, especially after the 
March events, there are still restrictions in civil society in terms of 
engagement from inside, and we've noticed that in our work we have 
challenges. So, moving forward, do you have any practical advice on how 
to continue engaging civil society, while we see that there are some 
changes taking place? I would love to hear that.
    Mr. Rauland. Anybody in particular?
    Mr. Nix. Sure, I'll go.
    First of all, thank you for the question and thank you for the 
service that you provide. The promotion and protection of human rights 
in Belarus is very critical to its potential development.
    I would just say this: My advice and counsel is keep doing what 
you're doing. As I stated in my testimony, and then Katie as well, 
there have been a number of very important events that took place this 
year in Belarus that showed that if people united on a common cause, on 
a difference that they had with government policy, they can be 
successful. The government will have to listen to them, if they unify 
and gather in substantial numbers. And again, the March demonstration--
the spring demonstrations really, really portrayed this, that if people 
speak out the government will listen. And that's an important lesson 
for people in communities. It's an important lesson for human rights 
organizations to really learn from this.
    We think there's the potential for other things. And maybe we can 
even get a change in the election code before the local elections, for 
an example. Maybe we can get Havary Pravdu registered as a political 
party. There are a number of issues that are out there that if people 
really, really concentrate and force the government to listen that they 
can affect change. So my advice and council, keep your voices. Make 
sure that the government hears them. Unite. And make it very clear what 
the demands are. Make it clear to the government what you are expecting 
the government to do, and you'll be successful.
    Mr. Rauland. Anything you care to add, Katie?
    Ms. Fox. Steve said it all.
    Mr. Samarasinha. Let me add another perspective on it. I mean, I 
think it's very important for you to keep doing what you're doing, and 
to keep saying what you're saying because, like I said, there's nothing 
more important than being consistent and principled in your message. At 
the same time, I think it is also important to consider multiple ways 
of engaging as civil society. And it's really important for all of us 
also to keep emphasizing to the authorities the need for them to find 
multiple ways of engagement, too. So you will see, for instance, the 
first NGO government engagement on human rights happened my first year. 
It was related to the universal periodic review reports, and it was in 
November of 2013.
    It was very difficult, trust me. And I can remember, even during 
the coffee breaks, I was talking to both sides saying guys, please, 
don't shout at each other, because if you do there will not be another 
one. And we managed to have a dialogue. And so it was a little bit 
easier five months later, because now people knew each other a little 
bit more. And now it actually happens on a fairly regular basis. That's 
not enough, of course, because that conversation must lead to positive 
action, concrete action, measurable action. For the first time, we have 
a human rights NGO in that international technical assistance 
coordination council that I mentioned. By decree, the Helsinki 
Committee is a member of that high-level council.
    Mr. Rauland. The Belarus Helsinki Committee, right?
    Mr. Samarasinha. The Belarus Helsinki Committee, I'm sorry. 
[Laughter.] Yes, the Belarus Helsinki Committee, which is an NGO, and 
it's a recognized and credible human rights NGO. An NGO that represents 
the rights of disabilities is part of that council. In the national 
human rights action plan, as per the universal periodic 
recommendations, Belarus accepted that they would bring in civil 
society to engage in all these human rights issues. And one of the 
things I have been advocating very strongly for is to have a council, 
like to have these public advisory councils, but have a council that 
supports and helps to implement and monitors the implementation of this 
human rights action plan. Right now, I co-chair a group of 
ambassadors--12 ambassadors with the EU and the deputy foreign 
minister. But we need civil society. We need the NGOs. So this is one 
thing.
    The second--and the Belarus Helsinki Committee was also appointed 
to this prisons inspection public advisory council just last week. You 
know, this is a huge shift. It's not going to change the world, but it 
is a huge shift. So you can find other ways to engage.
    But there is one important challenge here which I'm working very 
hard to address, hopefully before my time is up, is the issue of 
unregistered organizations, because if you're an unregistered 
organization you could still be an expert in the field. And so my 
argument is why not--let's have this conversation. If you don't want to 
recognize the unregistered organizations as organization, let's bring 
them in as experts on whatever issue it is that we're discussing. So 
I'm cautiously optimistic that before the end of the year we can 
achieve that too.
    Mr. Rauland. On that cautiously optimistic note, I think we'll now 
wrap things up. I'd like to thank the panel, all of you, for your 
interesting, thought-provoking presentations, the audience for your 
interest and your questions on the various topics that were raised 
today. For any of you, either here in the audience or on Facebook Live, 
who would like to come back to today's briefing, and share it with 
friends and colleagues interested in the topic, we always post our 
transcripts on our website. Let me spell that out for you, www.csce--
which stands for Commission on Security and Cooperation in Europe--dot-
gov.
    So one more time, www.csce.gov. You'll be able to find the 
transcript there hopefully by Monday.
    Thank you once again and I hope you find a way to stay cool the 
rest of the day today. [Applause.]
    [Whereupon, at 11:44 a.m., the briefing ended.]

                         A P P E N D I X

    =======================================================================




    I wish to commend Co-Chairs Senator Wicker and Representative Smith 
and the Ranking members Senator Cardin and Representative Hastings for 
their leadership of this Commission and thank them for conducting this 
event and inviting me to provide a brief on an extremely important part 
of the world. Due to its economic dependence and military cooperation 
with Russia and its proximity to three EU and NATO countries, Belarus 
is of great strategic and security interest to the United States--
especially now as the U.S. has increased its military presence in 
Central Europe and the Baltics. It is the last dictatorship in Europe 
and cannot continue in its current form. Because of that, this 
Commission's continued focus on Belarus is more important than ever.
    I am the Eurasia Director for the International Republican 
Institute (IRI), a nonprofit, nonpartisan democracy assistance 
organization that is active in more than 80 countries around the world. 
We trace our roots back to President Reagan and his unshakeable belief 
that, ``Liberty is not the sole prerogative of a lucky few, but the 
inalienable right of all mankind.'' There are not many places around 
the world that this message applies more than Belarus.
    While we applaud Belarus' expressed interest in engagement, we have 
seen little concrete action taken on the issues the United States has 
offered in terms of engagement. These issues include amending the 
election code, registering political parties and halting the practice 
of arresting citizens for political activities. In reality, democratic 
reforms in Belarus--including economic freedoms--remain stagnant and 
rarely move beyond the level of roundtables or diplomatic 
conversations. As evidenced most recently, raids of human rights 
defenders' offices and mass detention of opposition activists like we 
saw in March and February of this year, still occur.
    The democratic record in Belarus is dark and closed. If we look at 
the level of freedoms enjoyed by the citizens of Belarus, very little 
has changed in the last few years. The OSCE has consistently noted 
elections are undemocratic and neither free nor fair. Both 
parliamentarians and local officials are controlled by Lukashenka's 
government. The judiciary is not independent and heavily relies on 
government dictates for decisions. The most recent Freedom House 
Freedom in the World Report classifies Belarus as ``Not Free,'' largely 
due to human rights violations and incursions upon media freedoms. The 
government owns Belarus' single internet service provider and often 
blocks independent media sites, as it did during tax protests on March 
25 of this year. Seventy percent of the economy is state-owned and 
centrally planned. Transparency International's Corruption Perception 
Index of 2016 puts Belarus at a distant rating of 79.
    However, citizens finding themselves left behind by Lukashenka's 
rule have begun to organize and act. This citizen participation, which 
has included high profile protests as well as more locally-focused 
activism, gives hope for progress as citizens find small successes by 
working together.

Current Context

    At the beginning of this year, those Belarusian citizens unable to 
secure jobs began receiving notices that they owed the equivalent of 
$250 in taxes for being unemployed. This ``unemployment tax,'' also 
referred to as the ``Tax on Social Parasites,'' was designed to 
penalize those who consume social services but do not contribute to 
government coffers through taxes. Onerous taxation on those worst off 
in society spread discontent throughout the nation and small pockets of 
protesting communities began to form. They eventually developed into 
large citizen-led protests in five major cities throughout February and 
March.
    Actions were taken to deter these demonstrations. In advance of the 
largest protest--organized on March 25--authorities preemptively 
detained many leaders of the pro-democracy opposition. Also, in an 
effort to further deter participation on March 25, schools and 
universities held classes and state employees were required to report 
to work despite it being a Saturday.
    Police and security forces also aggressively attacked these 
protests, causing injuries to hundreds. More than 1,000 opposition 
demonstrators, political and civil society activists and community 
leaders were arrested.
    Following the protests and the subsequent security crackdown, the 
official rhetoric of Lukashenka shifted. In previous years, he had 
ridiculed the opposition, claiming they were bankrupt of ideas--framing 
their work not as dangerous, but as laughable. However, with the recent 
crackdown and arrests, he has returned to portraying them as a ``fifth 
column,'' manipulated by Western funding with the aim of destabilizing 
Belarus. He further claimed that funding and even weapons were being 
provided by Lithuania and Poland to the enemies of stability inside 
Belarus. Over a dozen political opposition and civil society activists 
were arrested and held for belonging to the ``White Legion''--an 
organization police alleged to exist to overthrow the state. No 
evidence of this existed, and those detained were held until just 
before the OSCE Parliamentary Assembly held in Minsk this July, then 
released due to lack of evidence.
    The nationwide protests showed a fracturing in society. Average 
citizens, not associated with the opposition or politics, marched 
against what they saw as a step too far by the state in shifting 
responsibility for bad decisions onto the public. Many of the 
protestors--middle-aged working class residents of regional cities--are 
the very people that independent polling shows have in the past 
supported Lukashenka. Their participation in these protests is 
indicative of a growing feeling of betrayal and economic desperation.
    Members of pro-democracy parties had been warning of the 
unemployment tax for over a year. In addition, they have been 
advocating local authorities to be more transparent in decision-making 
and budget allocation, and mobilizing communities over better services. 
By the time community residents were faced with an unemployment tax 
early this year, the opposition activists were proven correct and 
gained credibility as activists loyal to the community--not a ``fifth 
column,'' or Western puppets or any other moniker thrown by Lukashenka. 
Since the protests, community activists have built on the level of 
citizen engagement and have driven successful initiatives on everything 
from road repair to rights awareness for small business owners to 
municipal budget transparency.

Successes and Opportunities within the Pro-Democracy Opposition

    Regarding the pro-democratic opposition, recent strides have been 
made. I want to discuss two groups as examples. The first is the United 
Civic Party, which succeeded in having one of its members, Anna 
Konopatskaya, be elected to parliament in 2016. The 2016 elections were 
neither free nor fair, and the Parliament of Belarus is under heavy 
executive control. While being the lone opposition voice in a largely 
symbolic parliament does not carry political influence, Konopatskaya 
has provided insight into how the state monolith operates. She has also 
used her position to travel to the regions in an effort to connect 
citizens to the processes that govern them. A successful businesswoman 
herself, she has been a critical voice not only on economic development 
issues, but also electoral reform.
    The other example is Govori Pravdu, a citizen action group which 
translates to Tell the Truth. In 2015, the organization's leader 
Tatsiana Karatkevich challenged Lukashenka as the only opposition 
candidate in the presidential election. While the official election 
result listed Mrs. Karatkevich as receiving only 4.44 percent, 
independent polling shows nearly 20 percent of voters supported her 
candidacy. The same polling shows Lukashenka's result as only 51 
percent--still a mandate, but significantly lower than the Belarus 
Election Commission asserted. Since the campaign, Karatkevich has 
utilized her strong name recognition by traveling and advocating for 
regional small business owners, urging municipal officials and local 
Ministry officials to meet with citizen groups, and raising awareness 
of social service problems.
    These two women represent change in the opaque, authoritarian 
Belarus. Through years of activism they have won small community-level 
victories, and expanded their influence to nationwide recognition. They 
continue to utilize opportunities to civically activate citizens and 
push government authorities to meet citizens and hear their demands. 
But there are dozens more like them throughout the regions of Belarus. 
Belarusians have discovered the power of standing together, the power 
of uniting to drive change. More and more people are finding the 
courage to stand up for a better life and opposition activists have 
successfully brought citizens together. Further fostering this growing 
civic activity in Belarus requires a localized approach--and next 
year's municipal elections, preliminarily planned for February 2018, 
provide an important opportunity for change in Belarus.

Economic Situation

    Polls conducted in Belarus show the top five concerns and 
priorities of the public to be economic in nature: rising prices, 
decreasing salaries, low standard of living, lack of local economic 
development and unemployment. This trend has held over the last decade. 
Despite some changes or positive improvement in indicators like GDP, 
citizens feel negative, rather than positive trends. Independent 
polling shows that over 60 percent of Belarusians have little or no 
savings, and are living paycheck to paycheck.
    Belarus still relies on central planning with heavy state 
interference in at least 70 percent of the economy. Price controls, 
minimum production quotas for state-owned industry and collectivized 
agriculture, and coercive labor regulations which have been classified 
as forced labor by the U.S. State Department have placed burdens on 
average citizens and resulted in distorted markets designed to please 
the head of state rather than customers or workers.
    Due to a reform-minded Economy Ministry, Belarus continues to rise 
in the World Bank's Doing Business report--ranking 37th in 2017. 
However, as the majority of decisions, reforms and legislative actions 
depend on the whims of Lukashenka as head of state, the pace of reforms 
is likely to be glacial. Average citizens will not feel the benefits of 
these reforms, but do feel the cut in social services, the burden of 
additional fees and taxes and the decline in state owned enterprises. A 
telling example is the factory in Mozyr which can only afford to run 
its machinery and pay its staff from 8:00 am to 8:45 am every weekday.
    IT has become the fastest growing sector of the economy with 20 
percent growth annually and recently Lukashenka has announced radical 
measures for further development of the IT sector. However, recent 
arrests of IT CEOs and managers, as well as high taxes and regulations, 
deter investment in this sphere. Conducting business in Belarus almost 
always involves arrangements with the regime. Many IT entrepreneurs 
prefer to leave Belarus and register their companies abroad to minimize 
risk of arrest and intimidation.
    Lukashenka has often used economic populism to curry public favor 
during election periods. As Lukashenka's government becomes cash-poor, 
such spikes in social welfare spending will no longer be possible. 
Thus, he will rely on further disempowering citizens and falsifying 
elections to maintain power, or using force to keep citizens away from 
civic or political participation.
    The country stands in need of a bailout worth billions of dollars. 
Belarus must make fundamental, systemic economic reforms if it is to 
recover from its current situation. The regime now faces a dilemma: to 
recover economically, the government has to dramatically change its 
current economic model, which is the foundation of its political 
control over the country. Economic reform would mean giving up 
political control.

Dependence on Russia

    Because of failures intrinsic in Lukashenka's central planning and 
authoritarian control over Belarus' economy, he has always been 
dependent on Russian subsidies in order to maintain stability. Russia 
aids Belarus through low-interest loans and preferential pricing of raw 
materials and energy.
    Due to Russian subsidies, Belarus has the cheapest energy prices in 
the region besides Russia itself. But this has come at the cost of 
control over infrastructure. In 2011, Russian state-owned energy 
company Gazprom assumed full ownership of Beltransgaz, the Belarusian 
energy provider. Russia also controls Belarus's many oil refineries as 
well as exercises major influence in Belarus' electricity sector.
    Russia further has influence over Belarus through the Eurasian 
Economic Union and the Russian-led Collective Security Treaty 
Organization (CSTO). A new and disturbing area of influence is the 
construction of the Astravets nuclear power facility--with no allowance 
for international safety observers despite two accidents already during 
construction.
    This September, Belarus will host the joint Russian-Belarusian 
ZAPAD military exercises. Thousands of troops--as well as twenty-five 
Russian aircraft--will work to, ``maintain security of the Union State, 
its preparedness for repulsing acts of aggression and to advance 
command and control organizations' actions compatibility and units' 
training standards.'' These troops will be just miles from the borders 
of the EU and NATO. Belarus already hosts Russian communications and 
radar stations.
    There are signs that Belarus wishes to maintain its sovereignty in 
the face of Russian influence. Lukashenka has repeatedly dismissed 
Russia's proposal for a base on Belarusian soil. When Russia began to 
increase pressure for military exercises during the Ukraine crisis, 
Belarus engaged in military exercises with China instead. When Russia 
began using energy prices to pressure Lukashenka, Belarus struck energy 
deals with Venezuela and Azerbaijan.
    One view is that Russia is taking advantage of Belarus' poor 
economic model, and swallowing Belarus' strategic assets while 
encouraging more dependency. For Belarus, this results in a creeping 
loss of sovereignty. Another view is that Belarus is simply maneuvering 
between two great powers (Russia and the West) and trying to find the 
best deal. However, the level of economic dependence, the current level 
of military cooperation and integration and the high level of social 
sympathy with the Kremlin position due to years of propaganda and pro-
Russian media make change unlikely. Russia will continue to curtail 
Belarusian sovereignty as the price for economic bailouts. Only swift 
economic and democratic reforms will spur growth, attract investment 
and decentralize power to the point where Russia's influence is curbed.

Next Steps

    The parliamentary and reform work of Anna Konopatskaya, the 
national and regional outreach by Tatsiana Karatkevich and the 
community-level work of hundreds of activists shows that the citizens 
of Belarus, whether previously active or not, are looking for ways to 
improve their lives and neighborhoods. Segments of the entire 
population have become active and have protested, not merely the 
political opposition.
    In a 2016 poll, 90 percent of respondents stated they had not 
participated in any social activity aimed at solving local problems. 
Their reasons? They don't believe it would make a difference, they had 
never been invited to do so and they did not know how. Future change 
depends on addressing these concerns.
    The recent protest wave, which was widely covered in the media and 
discussed among the population, drew different sectors of society to 
the street, and which led to Lukashenka's suspending the unpopular 
unemployment tax, demonstrates that citizens have begun to change their 
minds and have discovered the power of standing together, the power in 
uniting to drive change. Belarusians' participation in change-oriented 
social activity is currently trending up as more and more people are 
finding the courage to stand up for a better life.
    The upcoming municipal elections in early 2018 provide an important 
opportunity for further change in Belarus. Local governments deal with 
everyday issues which directly impact citizens and are charged with 
delivering basic services citizens rely on. A free and fair local 
election would result in local concerns receiving attention from 
citizens demanding solutions. However, the current patronage-driven 
system rewards candidates for political loyalty, not innovation. 
Elected leaders become defenders of the system, rather than demanding 
results and serving their constituents.
    Should the government in Belarus allow free and fair elections in 
2018, we would see a number of victories by the political opposition. 
We would also see a number of concerned citizens able to access 
resources to improve their communities. Perhaps most importantly, 
residents would see the reality of the system and what reforms need to 
be made to allow them liberty and prosperity.
    The question remains: What is the United States' position with 
regard to the Lukashenka regime and toward the Belarusian pro-democracy 
opposition? The answer lies with the people of Belarus--who deserve to 
be the true decision-makers and power holders. U.S. assistance should 
be directed toward increasing the effectiveness and capacity of 
democratic political parties and activists inside the country first and 
foremost. Particularly, at community-level initiatives and 
developments. These grassroots activists are the ones who provide a 
decentralized and democratic alternative to Lukashenka and his 
authoritarian rule. Freedom and democracy should be the common cause 
uniting the European Union and U.S. with those inside Belarus who are 
fighting for a more prosperous future and a more democratic country.



    IRI has assisted pro-democratic forces in Belarus in their struggle 
for democratic change since 1997 through political party strengthening, 
coalition building and youth leadership development programming. These 
programs are the foundation of IRI's mission to support democratic 
organizations and help their leaders and activists prepare for public 
policy roles in a future democratic Belarus.
    Responding to developing trends in the country and nationwide 
discontent over the dismal economy, IRI shifted its programmatic focus 
in the last few years to fostering community-level activism. IRI firmly 
believes that the future development of Belarus depends on unleashing 
the potential of its citizens--allowing people to speak, assemble and 
earn a living in the way they see fit.
    For this reason, IRI continues to provide communication training, 
campaign training, project management consultation and community 
mobilization training in order to assist grassroots activists in their 
work with colleagues and neighbors to improve their lives at every 
level.
    IRI also works to support increased political participation of 
youth in Belarus, which represent the future of the country. Many in 
this generation, born after the fall of the Soviet Union and during 
Lukashenka's over two-decade long hold on power, see their country 
falling behind regional neighbors who have made great strides in 
development. Exposure to ideas and practices in democracy is a key step 
in providing context for these future leaders.
    IRI will continue to monitor the limited democratic space in 
Belarus and work with the opposition to find ways to continue their 
struggle for democratic change in Belarus.


    Thank you, Mr. Chairman, and members of the Commission, for holding 
this briefing on the ways the international community can best engage 
Belarus to encourage progress on human rights and democracy. 
Geographically in the heart of Europe and bordering the European Union 
(EU) and NATO, Belarus is an important country in the Eurasia region 
that can be overshadowed by its larger neighbors.
    In accordance with the Copenhagen Document of the OSCE, which 
affirms the right of citizens to ``receive and impart information and 
ideas without interference by public authority and regardless of 
frontiers,'' NDI has been exchanging ideas with--and responding to 
requests for advice from--democratic parties and civil society in 
Belarus since 2000. We appreciate the opportunity to contribute to this 
discussion in the wake of the OSCE's parliamentary assembly in Minsk.
    Supporting democracy and human rights in Belarus is the right thing 
to do. It is also consistent with the OSCE's values and commitments. 
But these are not the only reasons it's important. As Tom Carothers of 
the Carnegie Endowment points out, ``In most of the dozens of countries 
where the United States is employing diplomatic, economic, and 
assistance measures to support potential or struggling democratic 
transitions--from Cambodia, Indonesia, and Mongolia to El Salvador, 
Kenya, Nigeria, and Venezuela--such efforts align closely with and 
serve a critical array of unquestionably hard interests. These include 
limiting the strategic reach of the United States' autocratic rivals, 
fighting terrorism, reducing international drug trafficking, and 
undercutting drivers of massive refugee flows.'' In other words, it is 
in our own national interest to ensure that Belarusians feel their 
interests, rights and dignity are being respected.
    Belarus is not a free or democratic society. Democratic parties and 
civil society groups face many barriers to organizing, and individuals 
risk arrest for exercising basic rights of speech and assembly. As the 
OSCE pointed out after the 2016 parliamentary elections, Belarus's 
``legal framework does not adequately guarantee the conduct of 
elections in line with OSCE commitments and other international 
obligations and standards.'' Signs do not point to a dramatic 
democratic breakthrough in Belarus in the near future. However, there 
are new opportunities to contribute to the foundations of a more 
democratic system--as envisioned in the Copenhagen Document--with 
foreign assistance as well as diplomacy. While the government and 
president still control most aspects of Belarusian political and 
economic life, stifling independent activism, there are modest openings 
that can be leveraged to make broader democratic gains more attainable 
in the long run.
    First, there is growing evidence that the Belarusian government is 
not monolithic. The government allowed two opposition members to claim 
seats in 2016 parliamentary elections that were otherwise seriously 
flawed. Despite the limitations of these positions, the two members of 
parliament have found support from colleagues for opening up the 
parliament through public hearings and meetings with voters. In 
addition, there are discussions underway between opposition parties 
outside the parliament and government representatives on reforms in 
health care, Belarusian language education, and policies to curb drug 
trafficking and alcohol abuse. When massive protests broke out last 
March over the imposition of a new tax on the unemployed, the 
government reacted with arrests. But it also made some concessions to a 
movement of unprecedented size that had broad grassroots support and 
was present throughout the regions. The government offered meetings 
with citizens to explain the tax and it narrowed the scope of those 
affected. These developments, however humble, suggest that there may be 
room for citizens to influence some types of policies.
    Second, the movement against the so-called ``parasite tax'' on the 
unemployed illustrates how democratic parties have grown and become 
more effective. The opposition parties, which have previously been 
faulted for inadequate attention to the problems of ordinary 
Belarusians, recognized the importance of the tax issue long before 
protests broke out. The parties held meetings with voters, and 
campaigned on the tax issue in parliamentary elections. These parties 
have made significant strides in several areas. As the parasite tax 
case indicates, they are communicating with the public more regularly, 
both during and between election periods. In the most recent elections, 
they adopted more professional organizing practices and refrained from 
public attacks against other democratic parties. And finally, party 
coalitions that existed only ``on paper'' have been replaced by 
smaller, more pragmatic and genuine coalitions of parties with shared 
ideologies. One such example is the Center Right Coalition, composed of 
three parties and movements. These parties are now in a position to 
better represent citizens' interests in the political sphere.
    A third modest opening is the shifting aspirations of Belarusians 
themselves. Analysis of independent polling results from the 2015 
presidential campaign suggests that the sole democratic candidate, 
Tatiana Korotkevich, gained backing from voters who were not previously 
supporters of the opposition. Her message of ``peaceful change'' 
resonated particularly with young, urban Belarusians, and with women 
more broadly. This trend suggests that the electorate for democratic 
reforms may be expanding.
    As NDI Chairman Madeleine Albright noted at a recent Senate 
Appropriations Committee hearing, ``democracy can produce the kind of 
stability that lasts, a stability built on the firm ground of mutual 
commitments and consent. This differs from the illusion of order that 
can be maintained only as long as dissent is silenced; the kind of 
order that may last for decades and yet still disappear overnight.''
    In the case of Belarus, the international community cannot afford 
the `illusion of order' in a country in the middle of Europe, between 
Russia and the EU. If the international democratic community 
disengages, there is little doubt that the void will be filled by 
illiberal and authoritarian forces. In fact, a Russian government 
department which bears a superficial similarity to USAID, and is known 
as RosSotrudnichestvo (Russian Cooperation), has set up shop in the 
Belarusian regions.
    Belarusians are consumers of the propaganda and disinformation that 
permeates the Russian language information space. Disinformation in 
politics represents a critical threat to democracy. It spreads 
cynicism, distorts political processes and interferes with citizens' 
ability to make sound political decisions. Disinformation from foreign 
sources designed to influence political outcomes constitutes a 
violation of sovereignty. In a study by an independent Belarusian 
pollster, Russian mass media enjoyed more trust than either Belarusian 
state or independent media. \1\ Alternative sources of information for 
Belarusians, such as Warsaw-based Belsat and the independent internet 
news portal Tut.by, become more and more essential as the effects of 
Russian disinformation expand.
---------------------------------------------------------------------------
\1\  https://news.tut.by/economics/544272.html
---------------------------------------------------------------------------
    With this backdrop in mind, following are thoughts on future 
engagement in Belarus.

Diplomacy, including that of multilateral groups like the OSCE, will be 
most effective if it:
    <bullet>  Continues dialogue and engagement, but prioritizes 
outreach to genuine civil society groups and independent parties. These 
non-governmental activists should be included in the agenda of every 
visit.
    <bullet>  Focuses on systematic changes as conditions for greater 
engagement with the Belarusian government. There is great humanitarian 
value in prisoner releases, but of course, new prisoners can always be 
taken and held as bargaining chips. Systematic changes--such as 
allowing the registration of parties, removing the penalties for 
assemblies and other legitimate political activities, and reforming the 
electoral code to ensure real competition--would help to lay building 
blocks for longer-term, sustainable progress toward democratic reforms.
    <bullet>  Emphasizes changes to the electoral system recommended by 
the OSCE as well as independent monitoring groups such as the Human 
Rights Defenders for Free Elections and the Right to Choose coalition, 
composed of parties and civic groups. These include opposition 
representation on precinct election commissions, full access for 
political party and nonpartisan election monitors to observe and report 
on the vote counting and tabulation processes.
    Let me be clear, these efforts are not designed to influence 
electoral outcomes. They are simply a way to help advance peaceful 
participation in an otherwise restrictive political environment.

Outside assistance should:

    <bullet>  Help democratic parties and civic groups take advantage 
of current, albeit limited, political space--and corresponding 
opportunities for civic participation--to grow. It should provide 
support to enable them to attract new supporters, present alternative 
ideas, identify and reach out to youth and other potentially democratic 
groups.
    <bullet>  Treat information warfare like the urgent international 
security threat that it is. This means, among other things supporting 
the few but vital sources of independent information such as Tut.by, or 
ePramova. ePramova, an online platform for open discussion and debate 
started by NDI, has reached an average of 700,000 Belarusians each 
month. Millions more can watch ePramova's politically themed content on 
television, via a partnership with Belsat. ``Each of Us,'' a talk show 
filmed in Belarus with a studio audience, is showcasing instances of 
successful citizen activism on everyday issues. Projects like these are 
minor streams in a larger information flow, yet are invaluable as a 
source of accurate information on political life and citizen 
engagement.

    A Belarusian democratic leader recently said the following: ``We 
believe the presence of opposition in government and dialogue will 
bring democracy, social stability and a better life for Belarusians. We 
ask the U.S. to support these goals by maintaining a dialogue with both 
opposition and government and with aid programs that give civil 
society, independent media and democratic movements inspiration and 
vision. With this we can bring peaceful changes for our country.''

                                 <all>



  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
